<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2019</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]




 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2019

                              ----------                              


                        WEDNESDAY, MAY 23, 2018

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 2:28 p.m., in Room SD-192, Dirksen 
Senate Office Building, Hon. Jerry Moran (Chairman) presiding.
    Present: Senators Moran, Murkowski, Capito, Schatz, and Van 
Hollen.

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

STATEMENT OF HON. JAMES F. BRIDENSTINE, ADMINISTRATOR

                OPENING STATEMENT OF SENATOR JERRY MORAN

    Senator Moran. My hand will work as the gavel this 
afternoon.
    We are going to start just a couple minutes early. The vote 
is at 3:15, and so this will be similar to the hearing that we 
had last week when we were under similar circumstances with the 
FBI Director.
    Good afternoon. I call this hearing to order.
    I am pleased to be joined today by the Acting Ranking 
Member of this subcommittee, Senator Schatz. I chaired a 
subcommittee that he was the ranking member of before I came 
here, and he has followed me in this capacity. And I look 
forward to working with you and your colleagues on this 
particular issue of Commerce, Justice, Science, the National 
Aeronautics and Space Administration.
    Administrator, we are delighted to have you join us. I look 
forward to the conversation.
    In light of the time constraints, I am going to forego an 
opening statement, and I now turn to the Senator from Hawaii, 
Senator Schatz.

                   STATEMENT OF SENATOR BRIAN SCHATZ

    Senator Schatz. Thank you, Mr. Chairman. It is good to be 
back with you, Chairman Moran.
    Thank you, Administrator Bridenstine, for being here.
    I would also ask to enter both my statement into the record 
and Ranking Member Shaheen's statement into the record.
    Senator Moran. Without objection.
    [The statements follow:]
               Prepared Statement of Senator Brian Schatz
    Thank you, Mr. Chairman, and welcome Administrator Bridenstine.
    The President has requested $19.9 billion for NASA as a whole, 
which is 4 percent lower than what the Congress enacted in fiscal year 
2018. This budget repeats requests we rejected last fiscal year:

  --Zero-ing out education
  --Cutting Earth Science and next generation transportation systems

    It is useful to know that the administration's position on these 
programs, but make no mistake: the Committee believes they are 
priorities, and we will continue to enact funding for them. They are 
necessary for NASA to serve the American people through a balanced 
portfolio of space, aeronautics, and science.
    I have no argument with the budget's attention to human space 
travel--except that it seems to come at the expense of important 
programs that drive innovation, enable stewardship of the planet, and 
ensure an American workforce ready for the STEM jobs of tomorrow.
    To underscore my concerns, consider the Carbon Monitoring System, 
or CMS, which NASA just eliminated. Administrator Bridenstine, I 
appreciate our conversation and your assurances that funding will 
continue for grants that have already been made. I also think you made 
interesting points about NASA's other carbon observations, and I will 
use my time later to give you a chance to share those points here 
today.
    But the CMS is still a $10 million/year grant program that supports 
academic science in atmospheric carbon. This is the heart of what I 
mentioned earlier:

  --funding for innovation
  --supporting universities that educate tomorrow's STEM workforce
  --making factual observations of our environment.

    I can accept that a specific program like the CMS may no longer fit 
into NASA's portfolio of observations and science--but I sharply 
question the systemic cuts proposed in the fiscal year 2019 budget to 
Earth Science. The stakes are too high. We need impartial data from 
trustworthy sources like NASA to make smart decisions about how we 
manage resources and set policy for the future.
    We also need an educated workforce to innovate economic growth from 
NASA science, which makes the proposal to zero out education 
particularly disappointing. For the kids and teachers in States like 
mine where Space Grant inspires and educates, I have a message: don't 
worry. Last year, we rejected the proposal to terminate NASA education, 
and we will do it again this year.
    As for the budget's focus on human space travel to the moon as a 
stepping stone to Mars, I withhold judgment. It's a logical step, but I 
worry that increasing costs and delay wind up with us stalled at the 
moon indefinitely. The Government Accountability Office's most recent 
assessment of major NASA projects illustrates my concerns. The GAO 
found an average schedule delay of 1 year, up from 7 months last year, 
and average costs growing at least 18.8 percent--up from 15.6 percent 
last year.
    Administrator Bridenstine, you and I had a good conversation last 
week, and I hope it will be a strong foundation for working together. 
We will need to, if we want to deliver the NASA that America needs and 
deserves.
              Prepared Statement of Senator Jeanne Shaheen
    Thank you Mr. Chairman and welcome Administrator Bridenstine.
    Overall, the National Aeronautics and Space Administration (NASA) 
budget request is $19.9 billion, a cut of 4 percent below the fiscal 
year 2018 level. The request repeats cuts Congress rejected in fiscal 
year 2018, including eliminating education programs and cutting funding 
for next generation transportation systems and Earth Science--items 
that are priorities of this Committee because they help NASA achieve 
the agency's calling to explore, discover, teach and inspire.
    Such cuts threaten to stymie NASA's progress in achieving its 
missions and goals. Just as the administration's ambitious plans to 
return to the Moon rely on the deep space exploration vehicles, Orion 
and the Space Launch System (SLS), so does it also rely on having a 
technically-literate science and engineering workforce.
    That's why I'm so disappointed by the repeated request to eliminate 
NASA Education programs. The New Hampshire Space Grant is inspiring a 
love of science in K-12 students and helping support undergraduates and 
graduate students through scholarships, fellowships and internships. 
Through research grants and educations programs like Space Grant and 
EPSCOR, every State is a space State.
    I was glad to see your recent comments regarding climate change, 
Mr. Administrator. The science on climate change is beyond rational 
dispute: It is a reality--a clear and present threat to our planet--and 
it must be addressed robustly and urgently.
    When it comes to climate change, NASA's job is to observe the 
Earth--to tell us factually what is happening to our planet. NASA does 
not say why Earth's climate is changing or what policies we need to 
design in response. Yet NASA's fiscal year 2019 budget request cuts its 
core Earth observation by more than 7 percent, ending 4 missions. If 
this Nation is to make any progress in mitigating the harmful effects 
of climate change, we need science agencies, such as NASA, to provide 
factual and reliable information on how our world is changing.
    Finally, I'd like to note that the Government Accountability Office 
(GAO) in its assessment of NASA large projects reports that the cost 
and schedule performance has deteriorated over the last year. 
Exploration Mission-1 has slipped in to 2020 and the James Webb Space 
Telescope is facing 18 months of delay due to issues like using the 
wrong cleaner, the wrong voltage or the wrong torque. NASA can't afford 
its vast ambitions if NASA and its contractors cannot even tighten 
screws correctly.
    You may not think of New Hampshire as a space State, but indeed we 
are. We are the home State of Alan Shepard, the first American in 
space, and Christa McAuliffe, our teacher in space who died in the 
Challenger accident. Today, New Hampshire companies and universities 
supply NASA with technology to improve both low-orbit and deep space 
exploration and design, build and operate major instruments on NASA 
satellites to study solar physics.
    I look forward to working with you and the Chairman to ensure NASA 
can help inspire and train the next generation of technical workers, 
whether they are building rockets or building American industry and 
products in the private sector.
    Again, thank you for testifying today.

    Senator Schatz. Thank you, Chairman.
    Senator Moran. Administrator Bridenstine, we welcome your 
testimony. While you may have been instructed to make it 
abbreviated, I think we are going to have time to hear from 
you, and I would encourage you to tell us what you would like 
for us to know. And if we run into trouble, we will try to work 
on cutting our questions short, which suggests you may want to 
go long.
    Mr. Bridenstine. Okay.

             SUMMARY STATEMENT OF HON. JAMES F. BRIDENSTINE

    Well, Mr. Chairman and Mr. Ranking Member, it is an honor 
to be here. I have, of course, submitted my written statement 
for the record. I know, because of the time constraints, that 
we are short on time, and I would be happy to forego an opening 
statement and just say this, that I have been charged with 
leading one of the most storied agencies in the United States 
Government. It is the honor of a lifetime. We have people doing 
very dangerous things even right now on the International Space 
Station and flying missions all over the world to deliver 
science and discovery not only on behalf of this Nation but on 
behalf of the entire world. So it is an honor. I am thrilled to 
be here, and I look forward to answering your questions.
    [The statement follows:]
            Prepared Statement of Hon. James F. Bridenstine
                                overview
    Mr. Chairman and Members of the subcommittee, I am very pleased to 
appear before you today, in my first opportunity to testify before 
Congress as NASA Administrator, to discuss NASA's fiscal year 2019 
budget request of $19.9 billion. This budget, along with the fiscal 
year 2018 NASA appropriation included in the recently enacted fiscal 
year 2018 Consolidated Appropriations Act, places NASA at the forefront 
of a global effort to advance humanity's future in space, and expands 
on our Nation's great capacity for exploration and innovation.
    Pursuant to National Space Policy Directive-1, the request provides 
the fiscal year 2019 resources NASA requires for its role in ``an 
innovative and sustainable program of exploration with commercial and 
international partners to enable human expansion across the solar 
system and to bring back to Earth new knowledge and opportunities.'' 
The request provides the resources NASA needs to lead a sustainable 
campaign of exploration, returning humans to the Moon for long-term 
exploration and utilization followed by human missions to Mars and 
other destinations.
    With the fiscal year 2019 request, NASA is proposing an Exploration 
Campaign funded at $10.5 billion in fiscal year 2019 and $52 billion 
over 5 years. The Campaign is an Agency-wide integrated research and 
development program that focuses interconnected exploration objectives. 
Within the Exploration Campaign, NASA will pursue a bold new lunar 
exploration program by employing expertise and resources across the 
Agency in support of: a science and technology initiative; a small 
commercial lander initiative; a development activity for commercial 
mid-to-large landers to address both science and human exploration 
objectives, and a Lunar Orbital Platform-Gateway (or ``Gateway''). The 
effort is built to enable early successes with seamless collaboration 
across the Agency, and foster both commercial and international 
partnerships towards progressive capability development and leadership.
    The International Space Station (ISS) is a cornerstone of our 
integrated approach to exploration. NASA will use the full potential of 
the Station to demonstrate critical technologies, learn about human 
health in space, and focus commercial energies on the growing low Earth 
orbit (LEO) economy. Starting this year, we will accelerate the process 
of transitioning to commercial approaches to ensure a long-term human 
presence in LEO by the end of 2024 as NASA leads a coalition of 
international and commercial partners to the Moon and then Mars and 
beyond. We propose to end direct U.S. financial support for the ISS in 
2025, after which NASA would rely on commercial partners for our LEO 
research and technology demonstration needs.
    Deep space exploration will require a heavy-lift capability and a 
crew vehicle designed for the rigors of long-duration flights and high-
speed reentry into the Earth's atmosphere. NASA will test these 
capabilities with the uncrewed launch of the new Space Launch System 
(SLS) and Orion crew vehicle on an initial mission around the Moon in 
fiscal year 2020. In 2023, we will use these systems to launch humans 
into lunar orbit--the first human mission beyond LEO since 1972.
    To establish a presence beyond LEO in the strategic region around 
the Moon, NASA will develop the Gateway. The Gateway will be a place to 
live, learn and work around the Moon and will provide opportunities to 
support missions to the surface. The fiscal year 2019 request supports 
NASA's plan to launch the first element of the Gateway--its power and 
propulsion module--in 2022 and will do so by launching the element 
through a competitive commercial launch contract in an effort to both 
accelerate the establishment of the Gateway and enable and further 
advance commercial partnerships in deep space.
    NASA will draw on the interests and capabilities of our industry 
and international partners as we develop progressively complex robotic 
missions to the surface of the Moon with scientific and exploration 
objectives in advance of human return. In collaboration with our robust 
scientific activity across the NASA portfolio, these new lunar robotic 
missions will stretch the capabilities of industry and international 
partners, while returning science and knowledge we can use for human 
missions.
    The fiscal year 2019 request proposes a new Exploration Research 
and Technology budget line incorporating current Space Technology 
Mission Directorate (STMD) and some Human Exploration and Operations 
Mission Directorate (HEOMD) programs into an integrated technology 
investment line focused on exploration. These technology investments 
will enable new robotic and human exploration capabilities and 
missions, and they will contribute to economic development and growth 
by enabling innovative systems and services supporting the emerging 
space economy.
    At the end of the 5 years proposed in the budget request for this 
Exploration Campaign, NASA plans to have achieved uncrewed and crewed 
test launches of the SLS and Orion system; launched two of the initial 
elements of the Gateway (to be complete with two additional launches by 
2025); supported numerous commercial lunar robotic landings and 
developed lunar landing capabilities to support future NASA mission 
needs; developed key technologies needed to make exploration more 
capable and cost-effective; and established a pathway to enable a 
seamless transition from direct NASA financial support of the ISS in 
2025.
    The fiscal year 2019 request supports and expands science missions 
across the solar system while integrating science into the exploration 
campaign and leveraging NASA's extensive lunar science experience and 
data. As the Mars Curiosity rover continues to make dazzling 
discoveries, work continues on a sister Mars lander for launch in 2020. 
The budget provides for continued work on a potential Mars sample 
return mission, a Europa Clipper mission, and a constellation of 
operating planetary science missions. The request effectively triples 
funding for detecting and learning to respond to hazardous near-Earth 
objects (NEOs), funding a first-of-kind mission to deliberately alter 
the orbit of a near-Earth object. In Earth Science, the budget supports 
the priorities of the science and applications communities with a 
focused, balanced program including funding for Landsat-9 and a 
Sustainable Land Imaging program. The request supports the study of our 
nearest star with the launch later this year of the Parker Solar Probe, 
a mission that will endure high temperatures while traveling through 
the Sun's atmosphere to make the closest-ever observations of the Sun 
and, indeed, of any star. In Astrophysics, the James Webb Space 
Telescope will go to the opposite extremes--with detectors operating 
just a few tens of degrees above absolute zero, the telescope will look 
out over vast distances and back into the early universe.
    The fiscal year 2019 request supports NASA's continuing research on 
new aeronautics technologies, including commercial supersonic flight, 
unmanned aviation systems, and the next generation of aircraft. NASA's 
Low-Boom Flight Demonstrator, an experimental supersonic airplane will 
make its first flight in 2021. This ``X-plane'' could open a new market 
for U.S. companies to build faster commercial airliners, creating jobs 
and cutting cross-country flight times in half.
    The request proposes to terminate the Office of Education and its 
portfolio of domestic assistance awards (principally grants and 
cooperative agreements), redirecting those funds to NASA's core mission 
of exploration. NASA will continue to support other education 
activities, such as internships and fellowships funded by the mission 
directorates.
    NASA's fiscal year 2019 request supports the Agency's efforts to 
renew and sustain facilities crucial to mission success while divesting 
of unneeded infrastructure. The request maintains vital support for 
independent technical and safety oversight of NASA missions and 
operations.
                    human exploration and operations
    The fiscal year 2019 request proposes an integrated, Agency-wide 
Exploration Campaign. The Campaign will be executed with the goals of 
establishing an innovative and sustainable program of exploration in 
concert with our commercial and international partners, to spur a 
vibrant commercial activity in LEO, and to enable human expansion 
across the solar system, bringing new knowledge and opportunities back 
to Earth. The United States will lead the return of humans to the Moon 
for long-term exploration and utilization, followed by human missions 
to Mars and other destinations. The request provides the necessary 
resources in fiscal year 2019 to support development as planned of the 
SLS rocket and Orion crew vehicle, as well as the other critical 
technologies and research needed to support a robust exploration 
program. The budget creates new opportunities for collaboration with 
industry on ISS and supports public-private partnerships for 
exploration systems that will extend human presence into the solar 
system. The budget supports our plan to deliver to lunar orbit in 2022 
a power and propulsion element as the foundation of the Gateway.
    The fiscal year 2019 request includes a new account structure for 
human exploration and operations and space technology programs to 
improve alignment of programs and funding with NASA's new strategic 
space exploration objectives. This new structure includes LEO and 
Spaceflight Operations; Deep Space Exploration Systems; and Exploration 
Research and Technology accounts, and realigns some program content.
    Consistent with the new budget structure and in order to focus 
Agency activity on exploration, NASA also plans to reorganize the Human 
Exploration and Operations Mission Directorate (HEOMD) and Space 
Technology Mission Directorate (STMD). NASA will assess restructuring 
options (and hybrid options that may be developed), and prepare for 
implementation at the start of the fiscal year 2019 budget year.
    The fiscal year 2019 request includes $10.5 billion for the 
Exploration Campaign, with $4.6 billion for Deep Space Exploration 
Systems, and $1.0 billion for Exploration Research and Technology. The 
fiscal year 2019 request also includes $4.5 billion for Low-Earth Orbit 
and Spaceflight Operations, including the International Space Station 
(ISS) and Space Transportation--both commercial crew system development 
and ongoing crew and cargo transportation services that resupply the 
ISS, as well as $44.8 million for the Exploration Campaign Construction 
of Facilities and $268 million for Moon and Mars exploration activities 
funded in the Science Mission Directorate.
    The ISS will continue to serve as the Nation's core long-duration 
human spaceflight asset through 2024--which will mark nearly 25 years 
of continuous human occupancy. However, NASA must also look beyond its 
current programs in order to secure the Nation's future in LEO. 
Starting in fiscal year 2019, NASA proposes a new program designed to 
foster the emerging commercial LEO space industry. This program, 
starting with a $150 million investment in fiscal year 2019, will 
support commercial partners to encourage development of capabilities 
that the private sector and NASA can utilize in LEO. The budget 
proposes to end direct U.S. Government funding for the ISS in 2025, 
after which NASA would rely on these commercial partners for our LEO 
research and technology demonstration requirements. This decision does 
not necessarily imply that the platform itself will be deorbited at 
that time--it is possible that industry could continue to operate 
certain elements or capabilities of the ISS as part of a future 
commercial platform. NASA will encourage the emergence of an 
environment in LEO where NASA is one of many customers of a non-
Governmental human spaceflight enterprise. On May 17, NASA issued a 
NASA Research Announcement (NRA) for LEO Commercialization to inform 
NASA's strategy for enabling the commercialization of human spaceflight 
in LEO and meeting NASA's long-term LEO needs. The NRA solicits 
industry concepts, business plans and viability for habitable 
platforms, whether using the ISS or free-flying, that would enable a 
commercial marketplace in LEO where NASA is one of many customers. The 
NRA also seeks industry input on the role of government and evolution 
of ISS in the roadmap to commercialization of LEO. NASA anticipates 
awarding multiple four-month, fixed price contracts, up to $1 million 
per award.
    Maintaining the ISS requires a fleet of launch vehicles to sustain 
a constant supply line of both crew and cargo. Under the original 
Commercial Resupply Services (CRS) contracts, our two commercial cargo 
partners, Space Exploration Technologies (SpaceX) and Orbital ATK, are 
providing cargo deliveries to the ISS. Using the space launch vehicles 
developed in partnership with NASA, SpaceX and Orbital ATK have also 
helped to bring some of the commercial satellite launch market back to 
the United States and have reduced commercial launch costs. Under new 
CRS-2 contracts, SpaceX, Orbital ATK, and Sierra Nevada Corporation 
will deliver critical science, research, and technology demonstrations 
to the ISS over 5 years from 2020 through 2024. Working with our 
commercial crew partners, SpaceX and the Boeing Company, NASA plans to 
return crew launch capability to American soil in 2018. The fiscal year 
2019 request provides critical resources in this exciting and 
challenging period as we work with our partners to launch the first new 
U.S. human spaceflight capability in a generation.
    Under the auspices of the ISS National Laboratory, managed by the 
Center for the Advancement of Science In Space (CASIS), NASA and CASIS 
continue to expand research on the ISS sponsored by pharmaceutical, 
technology, consumer product, and other industries, as well as by other 
Government agencies, such as the National Institutes of Health and the 
National Science Foundation. Through CASIS' efforts, the ISS National 
Lab has reached full capacity for allocated crew time and upmass and 
downmass.
    As we move out beyond LEO, we will employ new deep space systems, 
including the heavy-lift SLS, Orion crew vehicle, the Exploration 
Ground Systems (EGS) that support them, commercial launch vehicles, 
lunar landers, and new deep space habitation capabilities to be 
developed through public-private partnerships and international 
partnerships.
    NASA plans to launch an initial, uncrewed deep space mission, 
Exploration Mission-1 (EM-1), in fiscal year 2020. The mission will 
combine the new heavy-lift SLS with an uncrewed version of the Orion 
spacecraft on a mission to lunar orbit. A crewed mission, EM-2, will 
follow in 2023. The fiscal year 2019 budget fully funds the Agency 
baseline commitment schedule for EM-2 and the Orion spacecraft and 
enables NASA to begin work on post EM-2 missions. Missions launched on 
the SLS in the 2020s will establish the capability to operate safely 
and productively in deep space.
    SLS, Orion, and EGS are the critical capabilities for maintaining 
and extending U.S. human spaceflight leadership beyond LEO to the Moon, 
Mars, and beyond. In fiscal year 2018, SLS Core Stage integration and 
outfitting (including installation of the four RS-25 engines) will 
continue at Michoud Assembly Facility. There will be a series of EM-1 
flight hardware deliveries to EGS at Kennedy Space Center (KSC). SLS 
will continue a series of EM-1 Design Certification Reviews, conduct 
the Critical Design Review (CDR) for the next mission, EM-2, and begin 
fabrication of components for EM-3 and beyond. In fiscal year 2018, 
Orion will continue qualification testing of systems for EM-2. NASA is 
accelerating the ascent abort-2 test (AA-2) into 2019, ahead of EM-1. 
Structural work is already underway on Orion EM-2 flight hardware 
production. For EM-1, the European Service Module is scheduled to be 
delivered to the Operations and Checkout Building at KSC for 
integration with the Crew Module. Later this year, EGS will complete 
the system verification and validation phase and begin the operations 
and integration phase in preparation for multi-element verification and 
validation for the Mobile Launcher, Pad, and Vehicle Assembly Building. 
These are the early steps on a journey that leads American astronauts 
into deep space, permanently.
    We also will begin to build the in-space infrastructure for long-
term exploration and development of the Moon by delivering to lunar 
orbit a power and propulsion element as the foundation of the Gateway. 
The Gateway to the Moon and beyond will give us a strategic presence in 
cislunar space that will drive our activity with commercial and 
international partners and help us further explore the Moon and its 
resources and leverage that experience toward human missions to Mars. 
In-space power and propulsion and deep space habitation are central to 
future human exploration. Development and deployment of these 
capabilities will be a focus of the early-to-mid 2020s, leading to 
crewed missions beyond the Earth-Moon system, including to the Mars 
system.
    NASA is also working on the second phase of the Next Space 
Technologies for Exploration Partnerships (NextSTEP), an effort to 
stimulate deep-space capability development across the aerospace 
industry. Through these initial public-private partnerships, NextSTEP 
partners will provide advanced concept studies, technology development 
projects, and significant measurements in key areas, including habitat 
concepts, environmental control and life support systems, advanced in-
space propulsion, and small spacecraft to conduct missions related to 
strategic knowledge gaps. NASA intends to perform integrated ground 
testing using habitation capabilities developed by the NextSTEP 
partners in 2018.
    As part of the Agency's overall strategy to conduct deep space 
exploration, NASA is supporting the development of commercial lunar 
exploration. A new cross-Agency campaign will combine science and 
exploration objectives in Advanced Cislunar and Surface Capabilities. 
The campaign will focus on engaging non-traditional U.S. industry 
partners and sectors in the space program and using innovative 
approaches to combine lunar robotics, a cislunar presence, and lunar 
landing capabilities, involving commercial and international 
participation. For example, the purpose of the Lunar Cargo 
Transportation and Landing by Soft Touchdown (CATALYST) initiative is 
to encourage the development of U.S. private-sector robotic lunar 
landers capable of successfully delivering payloads to the lunar 
surface using U.S. commercial launch capabilities. Commercial robotic 
lunar lander capabilities could address emerging demand by private 
customers who wish to conduct activities on the Moon, even while 
providing cost-effective transportation services for NASA's science and 
exploration missions, thereby benefitting the larger scientific and 
academic communities. As part of the Exploration Campaign, we will 
initiate a series of robotic lunar missions in partnership with 
industry as early as 2019, eventually leading to a continual human 
presence on and around the Moon. On April 27, the NASA Science Mission 
Directorate issued a draft Request for Proposals for Commercial Lunar 
Payload Services to acquire end-to-end commercial payload services 
between the Earth and the lunar surface for the Science, Human 
Exploration and Operations, and the Space Technology Mission 
Directorates. The contractor will provide all activities necessary to 
safely integrate, accommodate, transport, and operate NASA payloads 
using contractor-provided assets, including launch vehicles, lunar 
lander spacecraft, lunar surface systems, Earth re-entry vehicles, and 
associated resources. I met with industry representatives at the 
Commercial Lunar Payload Services Industry Day on May 8 and was excited 
by the growing partnership between NASA and commercial companies. 
NASA's expanding Moon strategy seeks to harness the innovation of 
American space companies to build new lunar landers. This solicitation 
for payload delivery services is a sign of NASA's ongoing confidence in 
the ability of U.S. industry to meet the needs for delivery services in 
space. These early deliveries to the lunar surface will support 
stronger scientific and exploration mission activities for NASA, and 
empower commercial industry to show the Agency what they have to offer.
    The budget request provides for critical infrastructure 
indispensable to the Nation's access and use of space, including those 
provided under Space Communications and Navigation, the Launch Services 
Program, Rocket Propulsion Testing, and Human Space Flight Operations.
    New research, technologies, and capabilities lay the groundwork 
that enhances and enables deep space exploration. Exploration Research 
and Technology will consolidate the technology development program 
content previously funded by Space Technology and Advanced Exploration 
Systems, integrating and refocusing these activities toward Deep Space 
Exploration. This will enable NASA's outstanding workforce to focus on 
innovative ways to further humankind's exploration from conception to 
testing to spaceflight. The Human Research Program (HRP) will continue 
to conduct cutting-edge research on the effects of spaceflight on the 
human body, including experiments on the ISS in microgravity. HRP will 
support the development of Deep Space Exploration habitat concepts to 
ensure crew health and performance risks are adequately addressed.
    NASA's fiscal year 2019 request includes $1.0 billion for 
Exploration Research and Technology to conduct research to address 
needs for human and robotic space exploration and to foster commercial 
expansion in LEO, cislunar space, and beyond. Technology drives 
exploration by spanning the Technology Readiness Level spectrum, 
including investments in early-stage concepts and prototypes. 
Exploration Research and Technology key areas of focus will include:

  --Advanced environmental control and life support systems;
  --In-Situ Resource Utilization (ISRU);
  --Power and propulsion technologies for exploration;
  --Advanced communications, navigation, and avionics;
  --In-space manufacturing and on-orbit assembly;
  --Advanced materials;
  --Entry, Descent, and Landing;
  --Autonomous operations; and
  --Research to enable humans to safely and effectively operate in 
        various space environments.

    Exploration Research and Technology will work with the Science 
Mission Directorate where appropriate on exploration-related technology 
and research that also has relevance to achieving science goals. In 
fiscal year 2019, NASA will build on its initial investment in In-Space 
Robotic Manufacturing and Assembly, continuing a public-private 
partnership approach to flight-demonstrate new technologies used to 
build large structures in a space environment. In addition, technology 
development in satellite servicing will be aligned to support on-orbit 
assembly and manufacturing capabilities in collaboration with industry.
    In fiscal year 2019, the HRP will continue to implement the ISS 
flight research plan crucial to mitigating crew health and performance 
risk for exploration. HRP will complete ground testing of an advanced 
exploration exercise system in preparation for ISS deployment as part 
of exploration system maturation plans. HRP will also continue to work 
with Deep Space Exploration's Habitation development to define and 
evaluate deep space exploration system habitats.
    Upon completion of hardware building, system integration, and test 
in fiscal year 2018, the Laser Communications Relay Demonstration 
project will deliver the completed mission payload to support a fiscal 
year 2019 launch. The outcome of this effort will prove optical 
communications technology in an operational setting, providing data 
rates up to 100 times faster than today's radio-frequency-based 
communication systems.
    In mid-2018, the Green Propellant Infusion Mission spacecraft and 
the Deep Space Atomic Clock instrument will both be delivered to orbit 
as part of the U.S. Air Force Space Test Program-2 mission aboard a 
SpaceX Falcon Heavy booster. In fiscal year 2019, both missions will 
complete their technology demonstrations. The Green Propellant Infusion 
Mission demonstrates a propulsion system using a propellant that is 
less toxic and has approximately 40 percent higher performance by 
volume than hydrazine, and which will reduce spacecraft processing 
costs. The Deep Space Atomic Clock demonstrates navigational accuracy 
improvements (with 50 times more accuracy than today's best navigation 
clocks) for deep space and improved gravity science measurements.
    In late 2018, the Solar Electric Propulsion project will complete 
ground testing of the engineering development units for the 
magnetically-shielded Hall effect thrusters and begin fabrication of 
the flight units for demonstration. As part of ongoing work under the 
NextSTEP-1 awards, NASA plans to conduct vacuum chamber tests of high-
power electric propulsion systems operating for 100 continuous hours.
    NASA will provide a number of technologies for the Mars 2020 
mission including: Terrain Relative Navigation; Mars Oxygen ISRU 
Experiment; the Mars Environmental Dynamics Analyzer; and the Entry, 
Descent and Landing Instrumentation, with deliveries between Fall 2018 
and Spring 2019 to support the mission need dates.
    NASA continues to partner with researchers across academia, 
industry, and within the Agency to explore transformative technologies 
and approaches. Upcoming early stage innovation activities will 
investigate areas such as breakthrough propulsion, challenges in deep 
space human habitation, space-optimized energy systems, radiation 
protection, and materials. These areas are part of a comprehensive 
approach to efficiently support innovative discovery, progress toward 
important goals, and the development of exciting new capabilities.
    NASA will continue to engage with the emerging small spacecraft 
industry, including through the CubeSat Launch Initiative. In 2019, 
Lockheed Martin will complete LunIR, which will test an infrared sensor 
through a Moon flyby, and Morehead State University will deliver Lunar 
IceCube to NASA to make infrared measurements of lunar volatiles. NASA 
will also launch its CubeSat Proximity Operations Demonstration, 
possibly as soon as August of this year, which will demonstrate 
rendezvous, proximity operations and docking using two 3-unit CubeSats.
                                science
    NASA uses the unique vantage points of space, airborne, and ground-
based assets, as well as teams of scientists, engineers, and 
technologists to expand our knowledge of the Earth, our Sun and solar 
system, and the universe. NASA measurements and research advance 
critical understanding, inform decisionmaking, and improve the quality 
of life for citizens in the United States and humankind around the 
globe. NASA's fiscal year 2019 budget requests $5.9 billion for NASA's 
Science program, including $2.2 billion for Planetary Science, $1.2 
billion for Astrophysics, $691 million for Heliophysics, and $1.8 
billion for Earth Science. The budget ensures that NASA continues to 
play an important role in safeguarding life on Earth: funding a robust 
Earth Science program, a dedicated Planetary Defense program for NEO 
detection and mitigation, and expanding research to improve predictions 
and forecasting of space weather. It enables NASA to develop and 
operate space missions that search for life and illuminate the secrets 
of the universe.
    The budget integrates science and human exploration goals, 
including the eventual return of humans to the Moon. Just this past 
year, scientists used data from NASA's Lunar Reconnaissance Orbiter to 
identify areas in lunar craters that are cold enough to have frost 
present on the surface--ice that could provide crucial resources for 
exploration while also containing valuable information about the 
chemical makeup of the early solar system. Establishing a new Agency-
wide Lunar Discovery and Exploration program and leveraging NASA's 
extensive lunar science experience and data, this budget jump-starts 
commercial partnerships, innovative approaches for building and 
launching next-generation precision science instruments, and the 
development of small rovers that will reach the Moon's surface via 
commercial landers.
    The request supports a vigorous Planetary Defense Program. The 
Near-Earth Object (NEO) Observations project will continue to fund 
ground-based NEO discovery, tracking, and characterization efforts, 
while laying the foundation for future space-based NEO detection 
missions. The Double Asteroid Redirection Test (DART) will demonstrate 
asteroid deflection technology, and use the kinetic impactor technique 
to change the orbit of a small moon circling the asteroid Didymos, 
which will be about seven million miles from Earth at its closest 
approach in 2022.
    Maintaining a balanced science program and achieving high-priority 
science and applications objectives in a cost-effective manner requires 
that NASA be committed to--and execute--a full range of responsible and 
transparent program management practices, policies, and approaches. To 
this end, the Science Mission Directorate is engaging in innovative 
partnerships with commercial and international partners and promoting 
the use of small, less expensive satellites. Given its significant cost 
and competing priorities within NASA, the budget proposes termination 
of the Wide Field Infrared Survey Telescope (WFIRST). Remaining WFIRST 
funding is redirected towards other priorities of the astrophysics 
community, including competed astrophysics missions and research.
    NASA's Planetary Science program develops and operates missions 
that explore our solar system and search for life elsewhere, helping to 
answer fundamental questions about our place in the universe. NASA's 
Interior Exploration using Seismic Investigations, Geodesy and Heat 
Transport (InSight) lander launched on May 5, and will land on Mars on 
November 26-joining a series of NASA rovers, landers, and orbiters 
already at the Red Planet. InSight's advanced payload will provide 
unique information on the interior structure of Mars, providing 
glimpses into the processes that shaped the rocky planets of the inner 
solar system. The budget also enables essential progress to be made on 
the Mars 2020 rover and planning for a potential Mars Sample Return 
mission incorporating commercial and international partnerships--a top 
priority identified by the scientific community in the most recent 
planetary decadal survey. In addition, we received radio signals 
indicating that the first-ever CubeSats headed to deep space are alive 
and well. Launched along with InSight, Mars Cube One, or MarCO, is a 
pair of briefcase-sized spacecraft that will test out miniature 
spacecraft technology along the way to Mars.
    In the coming year, NASA's Origins, Spectral Interpretation, 
Resource Identification, Security-Regolith Explorer (OSIRIS-REx) 
mission will arrive at the asteroid Bennu, providing unique data that 
will shed light on the early history of the solar system. OSIRIS-REx 
measurements of the composition of the potentially hazardous Bennu will 
also inform the design of future missions to mitigate asteroid impacts 
on Earth, an effort aligned with and supporting NASA's new Planetary 
Defense program. During 2018, NASA will continue development of the 
cutting-edge Europa Clipper mission to fly by Jupiter's ocean moon, and 
will announce the next scientifically and technologically innovative 
New Frontiers mission: either a comet sample return or a drone to 
explore Saturn's largest moon, Titan.
    NASA's Astrophysics program investigates the creation and evolution 
of the universe and the formation of planetary systems. It examines how 
environments hospitable for life develop, and contributes to the search 
for the signature of life on other worlds. The program operates the 
Hubble, Chandra, Spitzer, Fermi, Kepler, and Swift space telescopes, 
flies the airborne Stratospheric Observatory for Infrared Astronomy 
(SOFIA), and conducts balloon and suborbital rocket campaigns. NASA's 
impressive observatories will be joined by the James Webb Space 
Telescope. Webb will be larger and more powerful than any previous 
space telescope. It will be capable of examining the first stars and 
galaxies that formed, viewing the atmospheres of nearby planets outside 
our solar system, and informing our understanding of the evolution of 
our own solar system. As we have informed the Committee, based on 
recent information, NASA has undertaken an external independent 
assessment of the schedule and cost of the Webb mission.
    Two new astrophysics missions were launched to the ISS in 2017--the 
Neutron Star Interior Composition Explorer (NICER) in June and the 
Cosmic Ray Energetics and Mass (CREAM) experiment in August. NICER is 
the first NASA mission dedicated to pulsars--the densest observable 
objects in the universe, and CREAM monitors the cosmic rays that 
constantly shower the Earth. The Transiting Exoplanet Survey Satellite 
(TESS), launched on April 18, is NASA's next planet-hunting mission, 
searching for planets orbiting nearby stars. In August 2017, NASA 
selected six astrophysics Explorer Program proposals for concept 
studies. The proposed missions will collect unprecedented measurements 
of gamma-ray and X-ray emissions from galaxy clusters and neutron star 
systems, infrared emissions from galaxies in the early universe, and 
atmospheres of exoplanets. In January 2019, NASA will select at least 
two of these proposals for flight.
    NASA's Heliophysics program studies how the Sun affects the Earth 
and objects around it, how it influences other planets in the solar 
system, and how our star affects the very nature of space itself. 
Improved understanding of the Sun and information about the space 
weather phenomena it produces is used to provide warnings and better 
protect lives and essential--but vulnerable--systems on Earth, as well 
to safeguard astronauts, satellites, and robotic missions traveling 
through the solar system. The budget supports efficient, continued 
operation and analysis of data from the Solar Dynamics Observatory 
(SDO), the joint European Space Agency (ESA)-NASA Solar and 
Heliospheric Observatory (SOHO), and the Solar and Terrestrial 
Relations Observatory (STEREO). Together, they constantly monitor the 
Sun, revealing coronal mass ejections and releases of solar energetic 
particles, while also advancing scientific understanding of our star's 
fundamental dynamics. Focusing closer to Earth, the Magnetospheric 
Multiscale (MMS) mission uses four small spacecraft flying in formation 
to gather information on Earth's magnetic environment, changing our 
understanding of how that environment protects our planet.
    Heliophysics is preparing the launch of several innovative 
missions. The Global-scale Observations of the Limb and Disk (GOLD) 
instrument was launched aboard a commercial communications satellite in 
January 2018, and the Ionospheric Connection Explorer (ICON) spacecraft 
launches as early as June 2018. Together, they will provide the most 
comprehensive observations of the ionosphere--a region of charged 
particles in Earth's upper atmosphere--ever achieved. NASA and the 
National Oceanic and Atmospheric Administration (NOAA) are exploring a 
potential partnership to use a single launch vehicle for the 
Interstellar MApping Probe (IMAP) (the highest priority in the 
Heliophysics decadal survey) and a NOAA space weather monitoring 
payload. The partnership would provide NOAA access to the Ll Lagrange 
point for future space weather monitoring. The Space Environment 
Testbed 1 mission, a technology demonstration mission developed in 
partnership with the United States Air Force, is scheduled for launch 
in 2018, and three heliophysics CubeSats are being prepared for launch 
as part of NASA's CubeSat Launch Initiative. Perhaps most exciting is 
the upcoming launch of the Parker Solar Probe, scheduled for August 
2018. This historic mission will be the first to travel through the 
Sun's atmosphere, providing humanity with the closest-ever observations 
of a star.
    NASA's Joint Agency Satellite Program brings NASA's best practices 
to bear to support our interagency customer NOAA in the development of 
critical weather satellites for the Nation. Geostationary Operational 
Environment Satellite-R (GOES-R, now GOES-16) transitioned to NOAA 
operations in June 2017, and Joint Polar Satellite System-1 (JPSS-1, 
now NOAA-20) successfully launched in November 2017.
    NASA's Earth Science program makes revolutionary observations of 
our planet's land, oceans, and atmosphere from the vantage point of 
space; combines measurements of many different quantities to understand 
and accurately model the Earth's complex system of interacting 
processes; and provides practical benefits by transforming the 
measurements and understanding into focused information products that 
are used broadly to improve the quality of life for all humans.
    From December 2016 through December 2017, NASA launched two Earth-
observing technology demonstration CubeSats--ICECube and Microwave 
Radiometer Technology Acceleration (MiRaTa); the Cyclone Global 
Navigation Satellite System (CYGNSS) constellation of eight small 
satellites to measure rapidly evolving tropical storms and hurricanes 
using reflected Global Positioning System (GPS) signals from the ocean; 
and three key Earth observation instruments now mounted externally on 
the ISS (a Lightning Imaging Sensor (LIS); Stratospheric Aerosol and 
Gas Experiment-III (SAGE-III) to measure atmospheric ozone and aerosol 
profiles; and Total and Spectral Solar Irradiance Sensor-1 (TSIS-1) to 
precisely monitor solar radiation reaching the Earth).
    In August and September 2017, data products from NASA Earth-
observing research satellites were used to support real-time 
decisionmaking and response efforts by the Federal Emergency Management 
Agency, other operational agencies, and first responders on the ground 
in the affected areas during the catastrophic landfalls of hurricanes 
Harvey, Irma, and Maria. Precise, broad-coverage observations from 
NASA's Global Precipitation Measurement (GPM) Core Observatory enabled 
forecasters to understand and track the storms, and to generate 
accurate flood predictions. A suite of NASA satellite missions, 
including the Soil Moisture Active Passive (SMAP) satellite, assisted 
with flood mapping and recovery planning.
    NASA's Earth Science program is pioneering innovative partnerships 
and mission strategies to achieve science goals rapidly and cost-
effectively. The budget accelerates NASA's pilot data buys and 
evaluations of data products from commercial, on-orbit small-satellite 
constellations; NASA will have Blanket Purchase Agreements with at 
least four private-sector small-satellite data providers in place by 
Spring 2018. The low-cost, competitively-selected ECOsystem Spaceborne 
Thermal Radiometer Experiment on Space Station (ECOSTRESS) instrument 
to measure agricultural water use in the United States and vegetation 
stress around the globe, and to identify drought warning conditions, 
will launch to the ISS in mid-2018. Two major competitively selected 
payloads--Tropospheric Emissions: Monitoring of Pollution (TEMPO) to 
measure North American air quality, and Geostationary Carbon Cycle 
Observatory (GeoCarb) to measure natural carbon flux processes in the 
western hemisphere--are being developed for flight as hosted payloads 
on commercial communications satellites in this budget.
    In January 2018, the National Academies released the 2017-2027 
Earth Science Decadal Survey, ``Thriving on Our Changing Planet.'' The 
decadal survey recognized the value of NASA's Earth Science Program and 
identified a suite of high-priority science and observation objectives 
for NASA's Earth Science Division.
    Launching in 2018, two important decadal-survey-recommended 
missions will expand the long-term collection of key Earth 
observations. Making precise measurements of gravity from two 
spacecraft, the GRACE Follow-On mission (a partnership with German 
research and space agencies, scheduled for launch on May 19) will 
provide global information on ice sheet and oceanic mass balances, 
underground water storage changes in aquifers, and regional drought 
conditions. The Ice, Cloud and land Elevation Satellite-2 (ICESat-2), 
the follow-on to NASA's ICESat and IceBridge missions, will launch in 
Fall 2018 to map and monitor land ice topography and glacier flow, sea 
ice thickness, and the heights of the vegetation canopy at low- and 
mid-latitudes across the globe. NASA remains on track to launch 
Landsat-9 in December 2020 to continue the critical land imaging series 
begun with our United States Geological Survey (USGS) partners in 1972. 
Consistent with the fiscal year 2018 budget, the fiscal year 2019 
budget proposes to terminate Plankton Aerosol Cloud ocean Ecosystem 
(PACE), OCO-3, DSCOVR Earth-viewing instruments, and CLARREO 
Pathfinder.
    NASA's decadal-survey-endorsed Earth-observing satellite missions, 
along with the research, applications development, and Earth-focused 
technology maturation programs enabled by this budget, advance our 
understanding of the fundamental nature of our planet and improve 
everyday life on Earth for our fellow citizens.
                              aeronautics
    NASA's Aeronautics Research program advances U.S. global leadership 
by developing and transferring key enabling technologies to make 
aviation safer, more efficient, and more environmentally friendly. With 
a request of $634 million for Aeronautics, the fiscal year 2019 budget 
invests in the most critical concepts and technologies required to 
support continued global leadership in civil aviation.
    NASA recently awarded a competitive contract for detailed aircraft 
design, build, and validation of the Low Boom Flight Demonstrator 
(LBFD) X-Plane that will demonstrate quiet overland supersonic flight 
and enable U.S. industry to open a new market. In fiscal year 2019, 
NASA will ensure the LBFD X-plane is on track for first flight by 
fiscal year 2021. NASA also will continue to develop and validate 
community response test methodologies which will be employed during the 
subsequent LBFD flight campaign. Data generated from flights of this 
demonstrator will feed directly into national and international 
regulatory decisionmaking processes and timelines, enabling a rule 
change that will allow civil supersonic flight over land. NASA will 
also continue to advance new subsonic aircraft technologies that will 
dramatically reduce fuel consumption, noise, and emissions through a 
combination of numerical analyses, ground tests, and flight 
experiments.
    NASA's request for Aeronautics will invest in developing 
revolutionary tools and technologies ranging from hybrid and all-
electric aircraft, autonomy, advanced composite materials and 
structures, data mining, verification and validation of complex 
systems, and revolutionary vertical lift vehicles, to enabling further 
advances for transformative vehicle and propulsion concepts that will 
address a broad array of our aviation industry's needs. In partnership 
with industry, NASA will complete the Advanced Composites project, 
delivering a variety of computational tools and guidance that will 
significantly reduce the time needed to develop and certify new 
composite structures for aerospace applications.
    NASA will advance electric propulsion systems by flight testing an 
advanced configuration of the X-57 Maxwell aircraft, a general-
aviation-scale aircraft to test highly integrated distributed electric 
propulsion technology. This demonstration will address the integration 
of electrical and power distribution components, critical to 
development of standards and certification methodologies required to 
enable widespread use of this technology. NASA also will advance the 
state of the art of key technologies needed to realize practical 
larger-scale hybrid electric propulsion systems for the future.
    NASA will demonstrate new air traffic management (ATM) tools that 
integrate aircraft arrival, departure, and airport surface operations 
to reduce flight delays and increase air traffic capacity and safety, 
supporting realization of the Federal Aviation Administration's (FAA's) 
full vision for the Next Generation Air Transportation System 
(NextGen). Even with limited operational trials at the Charlotte 
Douglas International Airport, technologies being developed by the ATM 
Technology Demonstration-2 Project is already showing significant 
savings in fuel burns and delays during taxi operations. NASA will 
accelerate development and complete the transfer to FAA of key weather-
related technologies for efficient enroute operations. NASA will 
explore new, innovative solutions for proactively mitigating the risks 
of using new vehicle technologies, leveraging the recently published 
National Research Council study on In-Time Aviation Safety Management 
as well as partnerships with the FAA and aviation industry. In fiscal 
year 2019, NASA will demonstrate and validate tools which can be used 
for safety assessment of ATM and avionics systems, and transfer them to 
the FAA and the avionics industry.
    NASA will advance the realization of routine access of Unmanned 
Aircraft Systems (UAS) into the National Airspace System (NAS) for 
civil use by completing flight testing of detect and avoid (DAA) and 
communications technologies, and providing the data to standards 
development committees and the FAA to support UAS rule making. 
Additionally, NASA will help support safe, low-altitude operations of 
small UAS through development and demonstration of the UAS Traffic 
Management concept (UTM), in high-density urban areas. This 
comprehensive demonstration of the UTM concept in the most challenging 
operational environment will set the stage for transition to and 
implementation by the FAA and industry.
    NASA's fiscal year 2019 request increases funding for hypersonic 
fundamental research which will enable development of tools and methods 
to more efficiently design future hypersonic vehicles.
    Across all of these research areas, NASA investments will nurture 
U.S. university leadership in innovation that will foster and train the 
future workforce, and leverage non-aerospace technology advancements. 
Specifically, NASA will continue to see benefits from the University 
Leadership Initiative in which university-led research teams 
independently analyze the technical barriers inherent in achieving the 
Aeronautics Research Mission Directorate strategic outcomes, and who 
have proposed multi-disciplinary technical challenges, along with 
supporting activities to address those barriers.
                               education
    NASA's fiscal year 2019 budget proposes the termination of NASA's 
Office of Education and its portfolio of domestic assistance awards 
(grants and cooperative agreements), and instead prioritizes funding 
toward supporting an innovative and inspirational program of 
exploration. While the fiscal year 2019 budget no longer supports these 
programs, a common vision, mission, and focus areas will drive NASA's 
future endeavors in science, technology, engineering, and mathematics 
(STEM) and public engagement. Through its mission directorates, NASA 
will focus on: creating unique opportunities for students to contribute 
to NASA's work in exploration and discovery; building a diverse future 
STEM workforce by engaging students in authentic learning experiences 
with NASA's people, content, and facilities; and strengthening 
understanding by enabling powerful connections to NASA's mission and 
work. A small team at NASA Headquarters will be accountable for the 
strategic direction and coordination of the Agency's STEM engagement 
efforts.
    NASA's mission successes will continue to inspire the next 
generation to pursue science, technology, engineering, and mathematics 
studies, join us on our journey of discovery, and become the diverse 
workforce we will need for tomorrow's critical aerospace careers. We 
will use every opportunity to engage learners in our work and to 
encourage educators, students, and the public to continue making their 
own discoveries.
                            mission support
    NASA's mission support programs directly enable the Agency's 
portfolio of missions in aeronautics, technology development and space 
exploration. The fiscal year 2019 request prioritizes the capabilities, 
operations and equipment to safely operate and maintain NASA Centers 
and facilities, along with the independent technical authority required 
to reduce risk to life and program objectives for all NASA missions. 
With installations in 14 States, NASA collectively manages $39 billion 
in assets with an inventory of over 5,000 buildings and structures. Our 
focus is on renewing and sustaining what is crucial to mission success 
and divesting of unneeded, costly infrastructure to lower the cost of 
operations. In the transformation of information technology (IT) 
services, we are enhancing agency IT portfolio management and 
strengthening NASA's cybersecurity capabilities to safeguard critical 
systems and data.
    Over the last several years, NASA's Office of the Chief Information 
Officer (OCIO) has made significant progress in updating IT security 
policies, processes, and procedures to support the ongoing enhancement 
and automation of information system monitoring and reporting.
    In fiscal year 2019, OCIO will continue working toward improving 
NASA's compliance with the Federal Information Technology Acquisition 
Reform Act (FITARA) and the Federal Information Security Modernization 
Act (FISMA). Additionally, NASA OCIO will continue to implement 
improved management practices and efficiencies recommended by an 
internal IT Business Services Assessment. For example, NASA is 
continuing to evolve from a highly decentralized IT environment 
controlled by the Centers and Agency programs and projects to an 
enterprise IT environment that is more centrally managed and overseen 
by the Agency Chief Information Officer. This important transition, 
along with other internal governance and infrastructure changes, is 
contributing to a stronger cybersecurity posture at NASA. While there 
is no perfect, one-size-fits-all tool to predict, counter and mitigate 
the wide range of attacks experienced across the Federal Government, 
new cybersecurity management tools will continue to allow NASA and 
other Federal agencies to have better insight into their networks, 
providing improved pro-active monitoring and mitigation of threats 
before they cause significant harm.
                               conclusion
    The President's fiscal year 2019 budget request enables NASA to 
develop and operate technologies and systems for the human exploration 
of deep space and encourages the creation of a thriving commercial 
space economy in LEO and beyond; ensures robust programs of robotic 
missions to monitor the Sun and Earth, explore the planets of our solar 
system, and observe the universe beyond; and supports continuing 
advances to make aviation safer, more efficient, and more 
environmentally friendly.
    Mr. Chairman, I would be pleased to respond to your questions and 
those of other Members of the subcommittee.

    Senator Moran. Mr. Secretary, before we turn to questions, 
let me encourage you to tell us, as part of your statement, the 
vision, the direction of NASA as reflected by its budget 
priorities. Outline for us what you see happening based upon 
the request of you and the administration for appropriations 
from our subcommittee.
    Mr. Bridenstine. Yes, Mr. Chairman. You are aware of Space 
Policy Directive 1, which is from the President of the United 
States directing us to return to the Moon and do it in a way 
that is sustainable for the long term. We have had in the past 
a number of different efforts to get back to the Moon since 
1972, and in fact, we have been at the Moon and we still are at 
the Moon with orbiters and other capabilities. This President 
has said that getting back to the Moon with soft landings for 
the purpose of an eventual human return to the Moon is the 
objective to establish American leadership, but also to develop 
science capabilities on the Moon and utilize resources of the 
Moon--which is a new direction for this country, and I think it 
is an important direction--as we utilize the resources of the 
Moon to ultimately take us to Mars and beyond. That is, I 
think, a big policy direction shift.
    I also want to be really clear that we are still going to 
Mars as well. In fact, one of my first launches as the 
Administrator was the InSight launch, which is a lander that 
right now is on its way to Mars. We are looking forward to 
doing a soft landing on Mars around the Thanksgiving timeframe 
and delivering science for an eventual human trip to Mars.
    We are doing both. We are going to the Moon and we are 
going to Mars. We are not taking our eyes off the so many other 
critical, important missions of NASA, to include Earth Science, 
Heliophysics, Astrophysics, and Planetary Science with robotic 
landers and other things.
    I would say one of the President's objectives--and we have 
seen this in the NASA Transition Authorization Act--is to seek 
constancy of purpose so as we go from one Administration to the 
next, as we are doing these decadal kind of missions, that we 
are actually moving out and accomplishing similar objectives to 
the previous Administration, but at the same time small shifts 
here and there to reflect the priorities of this President.
    Senator Moran. Thank you very much, Administrator. And 
thank you for joining us. I think this is your debut appearance 
as the Administrator of NASA in front of our committee, maybe 
in front of any congressional committee.
    Mr. Bridenstine. Yes, sir.
    Senator Moran. And I welcome you to your new position, and 
I thank you for working to develop a good working relationship 
with this subcommittee as we try to pursue things that make 
sense from a budget point of view but also advance a cause of 
science and space exploration. So thank you very much.

                       SCIENCE PORTFOLIO BALANCE

    Let me ask you about that balance. Our committee has 
consistently looked at various scientific decadal studies that 
help us, guide us in making decisions in the process. 
Obviously, lots of budgetary pressures always on any agency, 
but including NASA. How do you plan to maintain a balance in 
the scientific portfolio between planetary missions, Earth 
science, biophysics, and astrophysics? How do you reach the 
conclusion as to what the right ratio is of where our resources 
ought to go and what the mission of NASA should be?
    Mr. Bridenstine. That is a great question, Chairman, and it 
is not an easy question to answer. We have, of course, at NASA 
within the various divisions of the Science Mission 
Directorate, a lot of critically important science missions 
going forward from previous decadal surveys, as a matter of 
fact. What happens is when we take on some of these really big 
projects--and I can give a few examples, but one example that 
is very salient right now is the James Webb Space Telescope. We 
take on a project like that, which is something NASA needs to 
do. We need to be at the very leading edge of technology. We 
need to be pushing the edge of the envelope all the time. When 
we take on a big project like that with brand new technologies 
and brand new capabilities, we sometimes have overruns in 
schedule and in cost, and that starts to impact other parts of 
the Science Mission Directorate.
    What we have to do going forward, as to your point, the 
balance that we need to have across the different divisions of 
the Science Mission Directorate, we need to look at 
historically how those kind of missions can sometimes 
potentially crowd out other missions and then build 
architectures that deliver that same civilization-changing 
science but maybe do it in a way where there is less risk 
involved.
    One way to do that would be to look more at the missions 
that are safe, $200 million or less in lifecycle cost, and 
instead of doing one flagship mission, divide it up among a 
number of different missions. Then if one gets behind schedule 
or over cost, it does not impact all of the other missions that 
are currently underway. That is one way to develop 
architectures across the different divisions of the Science 
Mission Directorate that ultimately will not have such a 
massive impact on the balance of the portfolio within each one.

                               EDUCATION

    Senator Moran. Let me perhaps more make a statement, but 
maybe there is a question in this as well.
    You and I visited in my office. One of the things that I 
think NASA provides that no other agency, no other Federal 
program can do is to inspire people and many times often young 
people, young men and women, to aspire to study science and 
mathematics and engineering and space. I have this goal from my 
own State at home in Kansas that we determine ways to increase 
STEM education. We need an inspiration, something that captures 
people's minds and hearts, and NASA in my view like no other 
agency or program can do so.
    We talked about the budget request when you and I visited 
in person. And it eliminates a significant portion of that STEM 
education role for NASA, something that I indicated to you I 
find objectionable. You explained to me how this can be 
addressed in other ways. But I would ask you, I guess, again 
what is your vision and view for how NASA can help educate and 
inspire another generation of individuals interested in science 
and, in doing so, help our Nation economically, advance 
technology, and to make certain that we are at the forefront of 
all scientific and educational advancement globally. NASA in my 
view has that mission.
    Mr. Bridenstine. Yes, Chairman Moran. And I could not agree 
with your assessment on the importance of education more.
    I will say this about my own life. I was a young boy in 6th 
grade, and I had the opportunity to go to a summer camp where I 
interacted with a wind tunnel for the first time. I learned 
about Bernoulli's theory of flight and how it works. I spent a 
week playing with the wind tunnel and changing the shape of a 
wing and seeing how that affected lift and drag and those kinds 
of things. That was I think the summer before my 6th grade 
year, and that impacted my life in an amazing way. From that 
point forward, I knew that when I grew up, I was going to be a 
pilot. It was just the way it was going to be. I have had that 
personal experience myself.
    I can also tell you there was a time in my life when I was 
the director of the Tulsa Air and Space Museum, and I saw 
firsthand the impact that I had when I was a child. I saw that 
impact on other children as well, fundamentally changing the 
way they viewed themselves and what they wanted to be when they 
grew up and the things that they wanted to study. I can tell 
you this, there is no agency in the Federal Government that can 
do what NASA can do when it comes to inspiration, as you have 
mentioned.
    Of course, I have spent time at your museum, the 
Cosmosphere in Hutchinson, Kansas, a wonderful, wonderful 
place. The scout troop that my son is a member of, we have gone 
up there and spent a weekend studying the history and the 
technology and the capabilities of NASA. I believe, as you 
believe, that is absolutely critical for our Nation.
    I will tell you this, the 2018 Omnibus spending bill, which 
just got passed a few months ago, obviously funded the 
education budget of NASA. NASA right now is moving out to 
follow the requirements of that spending bill.
    It is also true that we have had to make difficult 
decisions in challenging financial times, and this is one area 
that, of course, has been trimmed.
    What I will tell you is that NASA has--and I have been 
there for a month now--NASA has in its DNA education, going 
back to the very beginning, and it has in its DNA inspiration. 
Every day NASA is making historical achievements, and every 
day, whether we want to or not, we are inspiring children and 
changing lives, and I will tell you that we want to. We are 
committed to it.
    Going forward, each one of the mission directorates has the 
ability to affect education apart from that particular budget 
line, and we will continue to do that. In fact, just this week, 
we started an internship program with over 1,600 young folks 
that are coming to NASA to determine whether or not this is 
something they want to do for their futures. We are committed 
to education. We are committed to inspiration. I believe in it 
100 percent, and of course, NASA will do that regardless of 
that particular budget line.
    Senator Moran. Administrator, thank you. I would point out 
that your budget was submitted prior to your confirmation, and 
your budget was submitted prior to the fiscal year 2018 omnibus 
bill taking effect. So you start from a new plane. I do want to 
make sure that this is emphasized in our efforts.
    And thank you for mentioning the Cosmosphere, and I look 
forward to your return visit to Kansas.
    I now recognize the Ranking Member, Senator Schatz.

                            CLIMATE SCIENCE

    Senator Schatz. Thank you, Mr. Chairman.
    Administrator Bridenstine, thank you for being here.
    Do you believe that greenhouse gases are the primary cause 
of climate change?
    Mr. Bridenstine. Yes. The National Climate Assessment that 
includes NASA--and it includes the Department of Energy and it 
includes NOAA--has clearly stated that it is extremely likely 
that human activity is the dominant cause of global warming, 
and I have no reason to doubt the science that comes from that.
    Senator Schatz. Do you agree with the scientific consensus, 
which includes many NASA researchers, that the climate is 
changing and humans are the leading cause?
    Mr. Bridenstine. Yes.
    Senator Schatz. Is it fair to call this an evolution of 
your views?
    Mr. Bridenstine. Yes.
    Senator Schatz. Do you commit to supporting the funding, 
independence, and integrity of climate science at NASA?
    Mr. Bridenstine. Without question.
    Senator Schatz. Thank you, Administrator Bridenstine. You 
and I have had multiple conversations, both over the table but 
since then, in person and on the phone. And I just want to 
recognize your evolution on this issue. I think it is essential 
for one of the premier science agencies of the Federal 
Government for you to abide by the science. I think it is 
especially important because, as you know, you are the first 
NASA Administrator that was an elected official. You are also 
the first NASA Administrator with an essentially partisan 
confirmation vote. And so we needed to move through this period 
of sort of ideological disagreement, political disagreement, 
and back to the point where the NASA Administrator is a leader 
of a science agency. And you cannot lead a science agency if 
you are not grounded by the science.
    I thank you for that. I do not think it is easy for you to 
come to that conclusion. But on the other hand, what I have 
seen from you and in my interactions with you, I have come to 
the conclusion that this is a true evolution, that you respect 
the people with whom you work. You respect the science. You 
want their respect. And there is no way to move forward if you 
are going to be undermining the science. And so I am really 
pleased to see this change.

                             EARTH SCIENCE

    I want to ask you about Earth science. NASA observations in 
Earth science support resource managers and policymakers. So I 
want to talk to you about the termination of the carbon 
monitoring grants that we have talked about, the $10 million 
worth of carbon monitoring grants.
    First of all, I object to the termination of those grants. 
But second of all, I understand that NASA has numerous lines of 
efforts as it relates to carbon monitoring. So first, talk 
about the grants, and second, talk about your commitment to 
carbon monitoring and Earth Science generally.
    Mr. Bridenstine. Yes. Senator, when you think about the 
carbon cycle of the Earth, NASA has a number of different 
satellites currently that are taking into account how the Earth 
is changing and how our climate is changing and how carbon 
ultimately plays into that. Right now, we are spending over 
$100 million annually on measuring carbon not only in the 
atmosphere but on the surface of the Earth and in the oceans 
and other places. That is a critical piece of our Earth Science 
Division within the Science Mission Directorate.
    The carbon monitoring system specifically was a grant 
program. It is $10 million every 3 years. About 8 months ago, 
we issued grants, and those grants are going to go through the 
year 2020. That program in the 2018 budget request was not put 
in the President's budget request, and it did not receive a 
line item in the appropriations process.
    I will tell you that NASA has a number of programs even 
going forward. The Orbiting Carbon Observatory 2 is currently 
on orbit. The Orbiting Carbon Observatory 3 we are going to 
launch in January. GeoCarb is another satellite that we are 
developing and soon will be launching to monitor carbon. There 
is a satellite called ECOSTRESS that does similar things, and 
then GEDI is another satellite that we are launching.
    So the bottom line, Senator, is NASA 100 percent committed 
to understanding the carbon cycle, which is an extremely high 
priority that comes from the decadal surveys of the National 
Academy of Sciences. You have my commitment that we are going 
to follow the guidance of those decadal surveys for the purpose 
of keeping it, as you have said, apolitical, bipartisan, 
nonpartisan because the science must not be partisan. NASA is 
not a regulating body. What we want to do is to get the data, 
and we want to make sure that we provide that data and that 
science to decision-makers who can ultimately make sure that we 
are doing the right things as a nation and leading the world. 
So you have my commitment that NASA will continue doing that 
kind of activity, and we are.
    Senator Schatz. Thank you.
    Senator Moran. Senator Schatz, thank you.
    Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    Thank you, Mr. Administrator, for being here. I appreciate 
it. I know you waited a while to get here. So we are glad you 
are taking charge.

                INDEPENDENT VERIFICATION AND VALIDATION

    I wanted to ask you. You and I talked about the IV&V 
facility in Fairmont. I know that you have been aware and are 
supportive of that. I wanted to know what you might envision 
for the future there where the applications may be more 
beneficial to NASA but also within the Federal Government. If 
you have any thoughts on that.
    Mr. Bridenstine. Yes, ma'am. That is a wonderful question.
    The IV&V facility is currently partnering with a number of 
different agencies apart from NASA. I can think of the 
Department of Energy, the Department of Homeland Security. Of 
course, we have some nongovernment partners as well. We do 
utilize NASA's IV&V facility to do governmental things that are 
broader than what NASA itself does. We want to continue doing 
that. We believe that we are a national asset that can be 
utilized by a whole host of different government and 
nongovernment functions. We want to make sure that when we do 
do that, though, we are not impacting, of course, NASA's 
missions. That is, I think, an important thing that I want to 
make sure that we do not impact NASA's missions, but certainly 
we see ourselves as a partner to the Federal Government at 
large.
    Senator Capito. Thank you.

                               EDUCATION

    Last week, NASA announced that a team from West Virginia 
University was selected to test their research in simulated 
microgravity at the Johnson Space Center. They will be able to 
conduct their experiments in the pool where the astronauts 
train for their space walks. This is a unique and tremendous 
opportunity for our students, as you can imagine. And it is 
part of NASA's education program.
    So I continue to be frustrated that the administration 
continues to call for the elimination of NASA's Office of 
Education. So I would suggest maybe you rename it to be the 
Office of Inspiration because you are inspiring through these 
educational opportunities the next generation of science, 
technology, and interest in space, lighting a fire among a lot 
of young people.
    Will you work with me to continue to emphasize the 
importance of inspiring that next generation? I did not know if 
you had any comments on the elimination of the Office of 
Education.
    Mr. Bridenstine. Yes, ma'am. We just had a long dialogue.
    Senator Capito. Sorry.
    Mr. Bridenstine. No, you are good.
    What is interesting is you mentioned renaming it the Office 
of Inspiration, and we have been moving in that direction at 
the NASA headquarters but calling it the Office of STEM 
Engagement. I think when we call it the Office of Education, 
people get this idea that we are duplicating services of maybe 
the Department of Education or other Federal entities.
    What we do believe is that, as you are aware, NASA is 
unmatched in the Federal Government in its ability to inspire 
young folks and change lives and create the next generation of 
scientists and engineers. NASA is exceptionally unique in that.
    In fact, you mentioned that you had folks--was it the 
University of West Virginia--that are heading down to Houston. 
The University of West Virginia has done amazing things with 
robotic return capabilities. All those technologies are 
eventually going to be used for a robotic return of material 
from the Martian surface. And if I remember right, the 
University of West Virginia won a massive prize, and this was 
done by your students. A prize. And of course, that leads to 
more and greater technologies for that activity. It was about 
$750,000.
    Senator Capito. That is correct. And they are working on--
the West Virginia Robotic Technology Center is working on the 
Restore-L and working to refuel satellites in the low orbit.
    Let me just say, since I just have less than a minute--and 
I think I shared this with when you when we talked. Trying to 
inspire the next generation of young women and particularly 
into the STEM area--I just want to thank NASA because Dr. Peggy 
Whitson came to two elementary schools with me, talked about 
her spacewalks, talks about how she has been in space longer 
than anybody else in history. And she really inspired a lot of 
young girls that day. That is such a rich resource. I mean, I 
was kind of standing there going does anybody want to get in 
public service, and nobody would even look at me because they 
were just crazy to listen to what is it like to be in space and 
to get to be up close and personal with such an inspirational 
figure. So I hope that program continues, and I hope that the 
resources that you have there you share with the next 
generation to inspire. So thank you for that.
    Mr. Bridenstine. Yes, ma'am. Thank you.
    Senator Moran. Senator Van Hollen.
    Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman.
    Administrator Bridenstine, welcome and congratulations, and 
I appreciated the chance to get together with you again 
yesterday and go over some issues. And I want to thank you for 
the tone that you have taken ever since you were sworn in, and 
I do want to just underscore the comments of my colleague, 
Senator Schatz, with respect to your commitment to follow the 
science. I think the employees at NASA appreciated the town 
hall meeting where you brought people together and committed to 
focusing on the mission. And I appreciate your enthusiasm and 
energy about the NASA mission, which is a great American 
success story and a success story for the world.
    And I do want to also underscore, I think, the importance 
of sending the message that we will focus on real science not 
political science, including when it comes to recognizing that 
climate change is being driven primarily by carbon emissions 
generated by human activity. So I am glad we are all focused on 
the science.
    And I also know that you were not responsible for the 
budget that was submitted. It was our former colleague in the 
House. We can all go talk to Mick Mulvaney at the Office of 
Management and Budget.

                             EARTH SCIENCE

    But I do want to echo concerns that have been raised by all 
of our colleagues here on a bipartisan basis and specifically 
with respect to some significant cuts in the Earth sciences 
budget. I am very proud of the fact that Maryland is home to 
NASA Goddard, and we also share with the Virginia region, the 
Delaware region, Wallops Flight Facility.
    But on Earth sciences--and you and I spoke about this 
yesterday--there are proposals to--really deep cuts, eliminate 
the PACE program and some other Earth sciences programs. So if 
you could just again talk about what you see as the importance 
of those programs to the NASA mission.
    Mr. Bridenstine. Absolutely. A couple of things that I 
think are important to make sure because this is a bipartisan 
issue and I want to keep it as bipartisan as we can possibly 
keep it. It is important for our country. It is important for 
the world.
    The President's budget request for 2019 on the Earth 
Science side of the ledger was higher than 3 of the previous 
Administration's budgets for Earth Science, and it is tied with 
a fourth. It is kind of right there in the middle historically 
of the last 9-10 years. I think it is a good budget. Obviously, 
making difficult decisions in tough times, we made a 
determination that there were a couple of programs that 
ultimately were not the highest priority.
    It is absolutely important to me, as I know it is important 
to you, that NASA follows the guidance of the decadal survey. A 
brand new decadal survey came out in January of this year, and 
that decadal survey indicated that CLARREO and, as you 
mentioned, PACE are high priorities for the National Academy of 
Sciences that created the decadal survey.
    That being the case, what we are doing right now within the 
Earth Science Division of the Science Mission Directorate is we 
are evaluating that decadal survey, trying to make sure that we 
are covering all the science that they have called for us to 
cover, and at the same time, because of what the Senate and the 
House did for the 2018 Omnibus, we are moving forward with 
those programs. You mentioned PACE. I mentioned CLARREO. Right 
now, we are currently moving forward with those programs as 
required by the Omnibus of 2018.
    When we get to the point where we are ready to present how 
NASA sees the new decadal survey that recently came out, I will 
be more than happy to come and brief you and make sure that we 
are all in agreement that we are getting the science necessary 
that the National Academies have called for.
    Senator Van Hollen. I appreciate that. I will probably 
submit for the record--there are a number of other programs. 
Restore-L is one where NASA is sort of on a path-breaking 
mission for refueling, a number of other programs, including 
DSCOVR.

                                WALLOPS

    But if I could just use the remainder of my time to talk 
about Wallops because I know you recently visited Wallops. If 
you could talk about why the Wallops Flight Facility is an 
important asset for NASA.
    Mr. Bridenstine. Absolutely. Just a few days ago, I was out 
there preceding a launch to the International Space Station 
from the Antares rocket and the Cygnus spacecraft that was 
resupplying the International Space Station. It is an amazing, 
critical, strategic asset for the United States of America. It 
helps us maintain our leadership in the world on the 
International Space Station with those critical resupply 
missions. Of course, there are a number of different sounding 
rockets that are launched from there for the purposes of 
weather research and climate research and a whole host of other 
capabilities.
    It is also true that there are a number of aircraft out 
there, former Navy aircraft. There is a P-3 that is importantly 
using Lidar to measure how thick are the ice sheets in the 
Arctic or on the North Pole. In fact, just recently we had some 
amazingly brave pilots flying over the North Pole, flying over 
Greenland, over the north Atlantic, flying over Alaska 
measuring the thickness of the ice using Lidar, laser radar, if 
you will. The capabilities that are coming from that, of 
course, are informing--helping us understand how the cryosphere 
is changing, the ice on the surface of the planet and how that 
affects the rest of the planet. Those missions are important. 
We have NASA pilots that are taking great risk upon themselves 
to accomplish that science. All of that is being done from 
Wallops.

                               RESTORE-L

    On the Restore-L, if I have some time, I would like to 
address that, if it is okay, Chairman.
    Senator Moran. Please.
    Mr. Bridenstine. This is important. Robotic servicing for 
our country is a critical capability that we need to have for 
whole host of strategic reasons. Very soon, a number of 
commercial satellite operators are going to be launching into 
low Earth orbit with thousands of satellites for 
communications. And historically, satellites, when they die, we 
either try to bring them out of orbit or we supersynch them, 
meaning we put them into a very deep orbit that gets them out 
of the way. If you are in geostationary orbit, we supersynch 
them. In low Earth orbit, we try to bring them out of orbit.
    On top of all that, some satellites just do not work, and 
they die, and then they become orbital debris. We have had 
collisions, and we have had reports that indicate that an 
Iridium-Cosmos type collision that happened in 2009 that 
created 5,000 pieces of orbital debris--those kinds of 
collisions are going to continue to happen every 5 to 9 years.
    We have to make sure we do not do that. Orbital servicing 
of satellites, robotic servicing, is a critical capability. 
NASA is committed to it, and we want to make sure that we are 
doing it in a way that we can very dynamically and robustly 
service satellites in low Earth orbit to mitigate the orbital 
debris problem, keep our satellites on orbit longer, and make 
use of that capability. You have a commitment from me that we 
will do that kind of activity.
    Senator Van Hollen. Thank you. I look forward to working 
with you.
    Thank you, Mr. Chairman.
    Senator Moran. Thank you, Senator.
    I am going to suggest a modified second round of questions. 
We have other Senators who are expected to arrive. We welcome 
the Senator from Alaska. But in the absence of a new arrival, 
those who are here or remain here will have additional 
questions until approximately 3:15 or so.
    So I now recognize the Senator from Alaska, Senator 
Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. I appreciate 
it.
    Administrator, nice to see you.
    Mr. Bridenstine. Thank you.

                         NON-FEDERAL SPACEPORTS

    Senator Murkowski. I think you bring a refreshing view of 
expanding commercial space operations to the fore here and look 
forward to having some conversations about what can be done to 
help lower costs, increase the capabilities for NASA by 
increasing some of the partnerships and utilizing more of the 
capabilities that are offered by the private sector for space 
access and operations.
    We have in Alaska, as you know, some opportunities with the 
Pacific Spaceport Complex in Kodiak. It is operated by the 
Alaska Aerospace Corporation.
    Can you share with me how you view the use or the potential 
of non-Federal spaceports that can provide both the orbital and 
suborbital launch capabilities that may fit into future NASA 
programs and operations?
    Mr. Bridenstine. Yes, Senator. NASA is committed to getting 
more science and more data than we have ever been able to get 
before, and we are able to do that now because there are 
commercial partners providing data in low Earth orbit, remote 
sensing and imagery, as well as communication. All kinds of 
different sensors are being launched commercially to provide 
all kinds of capabilities that really have nothing to do with 
NASA specifically.
    What that means is that we have the ability as an Agency to 
purchase commercially access to space and to purchase 
commercially data from other people that are accessing space 
for other reasons.
    The way I see it, ma'am, going forward is the 
miniaturization of electronics, the reusability of rockets--we 
are going to see unprecedented access to space in the coming 
years. A facility like Kodiak, of course, is going to be a 
beneficiary of that capability.
    As an Agency, we are going to be launching commercially a 
whole host of small satellites to do science, and of course, 
even universities are building satellites on our behest. The 
more we do that kind of activity, the more data we are going to 
receive. What we do not do is, we do not tell our partners 
where to launch from, but a healthy small launch market, medium 
class launch market is what we want as a nation strategically 
beyond just NASA but for our Nation strategically. Of course, 
Kodiak could be a great player in that.

                              SMALL LAUNCH

    Senator Murkowski. Well, you mentioned there is a lot of 
potential. I think we recognize that there. So the small launch 
vehicle operators have some great opportunity I think to expand 
our space launch market and bring back some of that launch 
business that we have been seeing overseas. So hopefully, you 
share that same view of opportunity for how we might proceed 
with that.
    Let me ask about your plans, if any, to work with Federal 
and non-Federal entities to help streamline the satellite 
regulations and the launches that would help provide an 
improved broadband infrastructure for rural areas. This is, of 
course, of great interest to us up in the north and 
particularly the high north. We see this as that opportunity 
that will really help build out our capacity in some of these 
very remote, rural, and high-cost areas. Can you speak to that?
    Mr. Bridenstine. Absolutely, it would be my honor to speak 
to it.
    Historically when you talk about communications from space, 
historically it has been done from geostationary orbit. When 
you think about DirecTV and Dish Network, even some 
communication satellites for Internet from space, for example, 
that is done from geostationary orbit, which is 33,000 
kilometers from Earth. It is the highest orbit. The up side is 
that they do not move relative to the moving of the Earth. As 
the Earth turns, they stay in the same position over the Earth. 
That is the up side. The down side is that there is latency. 
There is a time for the signal to travel all the way out to 
geostationary orbit and all the way back.
    What is happening now that I think a lot of us, and I know 
you are excited about, is the idea that we have got antennas 
now that are electronically steerable, which means a flat 
antenna like this notepad would be on somebody's house. In low 
Earth orbit, where the satellites are constantly coming over 
the horizon and you cannot just have your satellite dish locked 
to one satellite, you have got to be tracking one satellite and 
sharing information back and forth with that satellite. Other 
satellites are coming by. You have to be able to pick those up. 
Electronically steerable satellite antennas are a huge 
technology breakthrough that are now being commercialized, 
which enables us to do this. Take those satellites in 
geostationary orbit and bring them down to low Earth orbit.
    Now, this is not necessarily tied to NASA, but it is tied 
to a robust commercial marketplace for communications to the 
point where if we can get it down to low Earth orbit, these 
constellations of thousands of satellites in low Earth orbit, 
the latency goes down to the point where you can use the exact 
same kind of waveforms as a cell phone. Now we have got 
potentially thousands of cell towers in low Earth orbit that 
any of us can access, and you can have portable bandwidth that 
can be--if there are 100,000 people descending on one part of 
the country--maybe there is a convention in Anchorage or 
something--you can steer the bandwidth to make sure that nobody 
gets blocked out from being able to use their cell phone.
    This changes how we understand communications on planet 
Earth. I, for example, could be on an aircraft carrier, which I 
have been, in the middle of the Pacific Ocean with no access to 
any kind of Internet connectivity, and all of a sudden, if 
these kind of constellations get built, I would have access 
immediately, instantaneously. That is transformative. 
Obviously, in rural Alaska, that is a big game-changer.
    Senator Murkowski. Game-changer.
    Mr. Bridenstine. Absolutely a game-changer. It is a game-
changer for a lot of my old constituents in Oklahoma, for 
example.
    To what Senator Van Hollen was talking about with robotic 
servicing, that is the capability where satellites in low Earth 
orbit can be addressed with a robust commercial robotic 
servicing capability. Those satellites in low Earth orbit 
generally come out of orbit in 5 to 10 years just because there 
is trace atmosphere in those low Earth orbits. With robotic 
servicing, you can boost the satellites. You can even change 
the technology on the satellites to increase capacity and 
throughput to get more data than we have ever gotten before, 
and, of course, data rates are continuing to increase. It is 
all about getting more gigabits per second of throughput.
    There are a lot of opportunities here, and NASA wants to be 
a partner. That is why robotic servicing is so important, and 
we intend to do that.
    Senator Murkowski. Exciting.
    Thank you, Mr. Chairman.
    Senator Moran. Thank you, Senator.

                              AERONAUTICS

    Administrator, we talked about--a number of us raised the 
topic of education. Let me take this to the university level, 
but let me do that by talking a moment about the aeronautics 
aspect of NASA.
    NASA, for example, is currently working on a low sonic boom 
aircraft that is expected to shorten flight times across the 
country and to destinations around the world. Research is done 
with the FAA on traffic management on integration of piloted 
and unpiloted vehicles into the Nation's airspace. Advanced 
material developments and characterization will lead to safer, 
cleaner, more fuel efficient aircraft. Kansas, as you know--
Oklahoma as well--is in aircraft aviation. We are States--that 
in many ways dominates what we do for a living.
    I want to know your view as to the role that universities 
can play in being a partner with NASA in regard to aeronautics. 
What do you expect to happen and how can I be of help to you in 
that regard?
    Mr. Bridenstine. That is another wonderful question. We see 
universities as a great opportunity to help us do the research 
necessary to get more advanced materials, composites, for 
example. I know you guys in Kansas are really big into 
composite repair and composite manufacturing. I know the 
Aeronautics Research Mission Directorate at NASA is working 
through an advanced composite program with, I think it is, the 
University of Wichita in conjunction with Spirit AeroSystems to 
put together a consortium of research, which is the university, 
and manufacturing, which is Spirit AeroSystems. That kind of 
partnership, along with some of our brilliant engineers, puts 
together really an ability for us to stay ahead technologically 
when it comes to manufacturing aircraft and creating lighter 
materials, materials that ultimately increase fuel efficiency 
and improve aviation in our country and make us more 
competitive in the world. I think that partnership is solid. I 
think we need to do more of that kind of activity, and I 
support it.
    Senator Moran. I appreciate your answer.

                             WEBB TELESCOPE

    As I arrived in this position to Chair this subcommittee, 
one of the things that captured my attention and somewhat my 
imagination is the Webb telescope. And it has had its 
challenges. And I am interested in knowing what you see as its 
history, but more importantly, what you see as its future. 
There has been a lot of attention paid it by Congress, by GAO, 
by the contractor. What do you see forthcoming despite some of 
the challenges that the telescope has had?
    Mr. Bridenstine. Yes, Chairman. It is a challenge that we 
have.
    I want to start by saying this and I believe this. With 
James Webb Space Telescope and other things that NASA does, 
what we ought to be doing is staying at the very leading edge 
of technology. When the James Webb Space Telescope launches, it 
is going to see back to the beginning of the universe. That is 
an amazing capability that all of us are anxiously 
anticipating.
    That being said, as important as that mission is, as 
critical as it is to NASA and to the United States and to the 
world, as critical as it is, it has had its challenges because 
we are at that very leading edge of technology.
    There have been a number of challenges. You start with the 
fact that the thrusters were one of the issues that we had. The 
thrusters were cleaned with a solvent that was not the right 
solvent, and that damaged some of the seals that ultimately 
required us to go back and develop new thrusters, to build new 
thrusters, and fix thrusters. That set us back.
    The sunshield that was on it, the ability to unfold it and 
fold it back together and test it--that has proven more 
challenging than I think was anticipated and that has set us 
back in terms of time and budget.
    We are with our challenges with the James Webb Space 
Telescope.
    I will tell you this: Looking at the budget for 2019, I do 
not think the impact is going to be that significant and here 
is why. Instead of doing operations, which we have a budget for 
operations for James Webb, we will just use that operations 
budget for development. That is not a good thing. I would 
rather be using it for operations, but the reality is for the 
2019 budget, I do not think it will be that big of an impact. I 
do not think it will be that big of an impact for 2020 for that 
same reason.
    The biggest challenge that I have, sir--and I am probably 
going to have to come back and talk to you--there is a 
potential--I do not want to get ahead of myself because I do 
not know yet, but there is a potential I might need to come 
back and talk to you. There is a funding limit on the James 
Webb Space Telescope that is set at $8 billion, and if the 
development costs go beyond that, we are going to have to come 
back to Congress and get reauthorized to continue the mission.
    I would say that at this point, we have spent so much money 
and we have come so far and we are so close, that it is 
important that we do that. I will testify to that today, but I 
am here to tell you that I do not know if we are going to hit 
that $8 billion mark or not. I honestly do not know that.
    The good thing is we have an independent review that is 
underway right now by a person who is exceptionally good at 
this kind of activity, and he and his team are going to report 
to us and to you on the status of the James Webb here in June. 
When that report comes out, we are going to have to come to a 
meeting of the minds and figure out how do we go forward with 
this program, if indeed we do need to go above the $8 billion 
cap that was set by Congress.
    Senator Moran. Thank you for your testimony.
    Senator Van Hollen.
    Senator Van Hollen. Well, thank you, Mr. Chairman. I was 
just checking off one of my questions on the Webb telescope. 
And we talked about that when we met yesterday, Mr. 
Administrator.
    Mr. Bridenstine. Yes, sir.
    Senator Van Hollen. You are right. We have had some 
setbacks. I hope the independent review gets to the bottom of 
that. But as I understand your testimony, you are 100 percent 
committed to getting this program to completion and fulfilling 
the mission. Is that right?
    Mr. Bridenstine. Without question.

                                 WFIRST

    Senator Van Hollen. The other question I had related to one 
of the recommendations that came out of the decadal survey. You 
mentioned the importance of pursuing the recommendations, and 
we talked about this a little bit yesterday. And the top 
priority, the large project in the 2010 National Research 
Council's decadal survey of astronomy and astrophysics was the 
wide field infrared survey telescope, WFIRST.
    Could you just talk a little bit about why the decadal 
survey made that a priority and the importance of that mission?
    Mr. Bridenstine. Absolutely. When we think about these big 
projects like the James Webb Space Telescope and the WFIRST 
space telescope, these are opportunities for us--we are talking 
about programs that have a finite lifetime. When the end of the 
James Webb happens, we need to have something that can come 
next, and that something needs to push the edge just a little 
bit further than the previous. Now, I certainly understand all 
of that.
    One of the challenges we have is because when we do these 
flagship programs that take a big chunk of what the decadal 
survey is wanting in terms of science, and if you take 60 
percent of the budget that we have to do one particular mission 
and then that mission grows, that puts us in a really difficult 
spot for all of our other missions.
    When we think about WFIRST, first of all, we are following 
through on the Omnibus of 2018. That is happening right now. We 
are looking at what the costs are going to be going forward for 
WFIRST, and we are committed to not have the same thing happen 
to WFIRST that happened to James Webb. That is where we are on 
that.
    Going forward, when we think about decadal surveys in the 
future, we might want to consider maybe distributing the risk 
among more smaller projects rather than one massive project 
that can clobber an entire division within the NASA budget.
    Senator Van Hollen. Got it. Well, I look forward to 
continuing the conversation.
    Thank you, Mr. Chairman.
    Senator Moran. Senator, thank you.
    Senator Schatz, thanks for filling the role of ranking 
member today.
    And, Administrator Bridenstine, thank you very much for 
your testimony. Our votes have been called. I would ask you, if 
you have a moment after the hearing, I would like to spend a 
minute with you.
    Mr. Bridenstine. Yes, sir.
    Senator Moran. And I would announce that our subcommittee 
will have its markup at 2:30 on June the 12th. That will 
include NASA but our full array of issues within our 
subcommittee's jurisdiction. Two days later, June 14, the full 
committee is scheduled to meet to do markup of this and other 
appropriation bills.

                     ADDITIONAL COMMITTEE QUESTIONS

    With that, there are no further questions this afternoon. 
Senators may submit additional questions for the subcommittee's 
official hearing record. We request that NASA respond to those 
questions within 30 days.
    [The following questions were not asked at the hearing, but 
were submitted to the Agency for response subsequent to the 
hearing:]
            Questions Submitted to Hon. James F. Bridenstine
              Questions Submitted by Senator John Boozman
    Question. Administrator Bridenstine, thank you for testifying about 
the request for fiscal year 2019 funding for NASA. I appreciated the 
opportunity to talk to you in my office a couple weeks ago to discuss 
your plans for NASA and to hear you lay out the return to a focus on 
lunar and cislunar exploration. I certainly want to support that 
effort. In the omnibus for fiscal year 2018, we funded NASA at $20.8 
billion, almost $2 billion above the President's budget request. I was 
pleased to see that the budget request this year was increased by $800 
million over what the agency projected for fiscal year 2019 last year. 
Still, I think Congress will continue to show its strong support for 
your mission. In the budget request, I noted no funding was made 
available for the Experimental Program to Stimulate Competitive 
Research, or EPSCoR That, in fact, the proposal is to shut down the 
Office of Education that oversees EPSCoR and other grant programs. 
Arkansas scientists benefits from this NASA program via the Arkansas 
Space Grant Consortium. Your budget proposal indicates that STEM 
engagement will now be overseen by the Agency Management and Operations 
team.
    How will you ensure that NASA continues its vital contributions to 
STEM education if this transition occurs?
    Answer. While the fiscal year 2019 budget no longer supports the 
formal Office of Education programs, a common vision, mission and focus 
areas will drive NASA's future endeavors in STEM engagement and public 
engagement. The Agency Management and Operations budget will support 
13 civil servants for the Office of STEM Engagement, which will be 
accountable for strategic guidance and coordination of NASA's STEM 
engagement efforts Agency-wide, enabling a mission-driven approach to 
this work in close collaboration with the Mission Directorates.
    Through its Mission Directorates, NASA will focus on creating 
unique opportunities for students and the public to contribute to 
NASA's work in exploration and discovery; building a diverse future 
STEM workforce by engaging students in authentic learning experiences 
with NASA's people, content and facilities; and strengthening public 
understanding by enabling powerful connections to NASA's mission and 
work.
    Question. For programs, like the Arkansas Space Grant Consortium, 
that benefit from current NASA programs, how can they continue to be 
engaged with and supported by NASA?
    Answer. While the fiscal year 2019 budget no longer supports the 
formal Office of Education programs such as the National Space Grant 
College and Fellowship Program, NASA will continue creating unique 
opportunities for students and the public to contribute to NASA's work 
in exploration and discovery through its Mission Directorates. NASA 
will also continue to offer internships and fellowships and work to 
build a diverse future STEM workforce by engaging students in authentic 
learning experiences with NASA's people, content and facilities. There 
are also opportunities for organizations, like the Arkansas Space Grant 
Consortium, researchers, businesses and entrepreneurs throughout the 
country to engage with NASA through a variety of solicitations and 
partnership opportunities typically posted here: https://
nspires.nasaprs.com/external/
    In addition, the following NASA mission directorates also provide 
opportunities that may interest Arkansas State:

  --The HEOMD education initiatives are listed at: https://
        www.nasa.gov/
        directorates/heo/education/projects.html
  --The SMD education initiatives are listed at: http://smdepo.org/
        projects
  --The STMD education initiatives (through Glenn Research Center) are 
        listed at: https://spaceflightsystems.grc.nasa.gov/education-
        outreach/
  --The ARMD education initiatives are listed at: https://
        www.hq.nasa.gov/office/aero/education.htm

    Also, NASA routinely conducts outreach events in areas where there 
is not a NASA presence or NASA Center. For example, NASA's Small 
Business Innovation Research (SBIR) and Small Business Technology 
Transfer (STIR) program officials routinely take part in the Small 
Business Administration's SBIR Road Tours (https://www.sbir.gov/sbir-
road-tour), which play an important role in increasing engagement with 
entrepreneurial ecosystems across the country to support the creation 
of small businesses focusing on next generation research. For example, 
Little Rock, Arkansas hosted a Road Tour at the University of Arkansas, 
Little Rock Reynolds Business Center on April 18, 2018.
    Organizations may also request the NASA Office of Small Business 
Programs to participate in outreach events being held in their States 
to discuss how to do business with NASA. For example, NASA collaborates 
with local Procurement Technical Assistance Centers (PTAC) 
organizations to promote NASA community-level events. At these events, 
local industry can get more information about NASA small business 
programs, the SBIR/STTR program, the NASA Centers, and NASA prime 
contractors.
    NASA hosts webinars covering different topics to help industry 
better understand how to work with the Agency and our prime 
contractors. NASA also has several websites that individuals or 
industry can access to get more information (including contact 
details). For example, the SBIR/STTR program (https://sbir.nasa.gov/), 
and Small Business Programs (https://www.osbp.nasa.gov/).
    Question. Can you assure me that my schools in Arkansas will 
continue to enjoy a productive relationship with your Agency?
    Answer. We will continue to engage the Nation in NASA's mission. 
While NASA cannot assure continuance of specific relationships with 
existing programs that are funded by the Office of Education, we can 
however ensure that the agency will continue to provide opportunities 
that include immersing the public in NASA's work in air and space, 
enhancing STEM literacy, and inspiring the next generation to pursue 
STEM.
                                 ______
                                 
              Questions Submitted by Senator John Kennedy
    Question. With the rise of private space firms such as SpaceX and 
Virgin Galactic, we have seen affordability and reusability become 
important factors in the space arena. Are there any cost saving lessons 
that NASA can adapt from the private space industry?
    Answer. The President's fiscal year 2019 budget request proposes an 
integrated, Agency-wide Exploration Campaign, which will be executed 
with the goals of establishing an innovative and sustainable program of 
exploration in concert with our commercial and international partners. 
NASA plans to develop key technologies needed to make exploration more 
capable and cost-effective and develop spaceflight interoperability 
standards to increase competitiveness and opportunities for new 
partners. The Agency will leverage its unique capabilities, as well as 
those of the private sector, and use partnerships to develop safe, 
reliable, and cost-effective space systems, while simultaneously 
developing a commercial low-Earth orbit (LEO) space economy. NASA is 
planning acquisition strategies that leverage existing commercial 
designs rather then creating new designs to lower overall development 
and sustaining costs. NASA is also working on spaceflight acquisition 
approaches such as Gateway that will enable partnerships to achieve the 
goals of both partners while furthering exploration capabilities. The 
Agency's long-term Mars plans include reuse of transportation and 
habitation systems through cislunar points of departure and return, 
avoiding the costs of propellant systems necessary to leave and return 
in the Earth's strong gravity well. Finally, the Agency is assessing 
lunar lander concepts and low lunar orbiting tugs that are refuellable 
and reusable for multiple missions.
    Question. In March, the President announced his 'America First 
National Space Strategy'. In his announcement the President stated that 
our international rivals have turned space into a warfighting domain. 
How can we better prepare our space infrastructure for attacks from 
international adversaries and bad actors?
    Answer. As context, NASA's perspective on the space domain has been 
from a mission-based civil architecture rather than from the extensive 
systems planning inherent in mission-driven military capability for 
warfighting and survivability.
    The need for protection of NASA's space infrastructure, or more 
broadly the NASA enterprise, begins with understanding the risks and 
potential threats to space assets and to the overall enterprise. Once a 
risk is identified, a posture for protection of infrastructure and 
enterprise systems could span a wide range of assets and capability.
    For example, within NASA, space systems span capability from human 
spaceflight to robotic science spacecraft performing roles that may 
deliver a capability over decades. In all NASA missions there are 
critical ground-based operations and communications systems upon which 
there is a dependency for safe operation of the space operations 
architecture. Additionally, there are corporate information systems 
that tie legacy and new mission ground-based infrastructure supporting 
core NASA missions in space flight, as well as research and 
development, test facilities and equipment.
    NASA has been aware of evolving competitive sophistication in the 
space domain which drives the need for identifying vulnerabilities and 
risks associated with maintaining mission-assured civil capability from 
adversarial attack. We have implemented a program of identifying, 
classifying and assessing applicable threats, followed by implementing 
risk mitigations to reduce exposure. In practice, as we continue to 
implement mitigations and strengthen our posture toward protection of 
our enterprise systems, additional investments will likely be required 
to perform core NASA missions in a rapidly evolving space domain.
    Question. With the first SLS mission scheduled for 2020, do you 
have an updated budget forecast for the SLS program that you can share?
    Answer. The current Space Launch System (SLS) runout is reflected 
in the fiscal year 2019 President's budget request, as below; any 
changes in the runout will be reflected in future budget requests.

                                                BUDGET AUTHORITY
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                     2019        2020 *       2021 *       2022 *       2023 *
----------------------------------------------------------------------------------------------------------------
Space Launch System............................     2,078.1      2,062.9      2,165.1      2,131.0      2,276.0
----------------------------------------------------------------------------------------------------------------
* Notional

                          SUBCOMMITTEE RECESS

    The subcommittee now stands in recess, subject to the call 
of the chair.
    [Whereupon, at 3:18 p.m., Wednesday, May 23, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
